April 22, 2004
Report No. 04-018


Control Framework for the Virginia Square
Phase II Project




              AUDIT REPORT
                                                    TABLE OF CONTENTS


BACKGROUND ....................................................................................................................................1
    Project Initiation........................................................................................................................1
    Project Oversight Structure.....................................................................................................2
    Project Management Guidance...............................................................................................3

RESULTS OF AUDIT...........................................................................................................................3

FINDINGS AND RECOMMENDATIONS.......................................................................................4

FINDING A: PROJECT CONTROL FRAMEWORK..................................................................4
     Project Management Processes ...............................................................................................4

FINDING B: PROGRESS PAYMENTS TO THE GENERAL CONTRACTOR.....................6
     Review of Turner Invoices .......................................................................................................6
     Recommendation .......................................................................................................................8

CORPORATION COMMENTS AND OIG EVALUATION.........................................................8

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY.................................................9
APPENDIX II: VIRGINIA SQUARE PHASE II PROJECT MANAGEMENT
              CONTRACTORS ..................................................................................................12
APPENDIX III: CORPORATION COMMENTS .........................................................................13
APPENDIX IV: MANAGEMENT RESPONSE TO THE RECOMMENDATION ................15


TABLES

Table 1: Controlling Processes for the Virginia Square Phase II Project .....................................4

Table 2: Amount Retained From Turner Construction Through February 13, 2004................7


FIGURES

Figure 1: Virginia Square Phase II Timeline ....................................................................................2

Figure 2: Virginia Square Phase II Project Management...............................................................2

Figure 3: Project Management Process Groups...............................................................................4
In March 2002, the FDIC Board of Directors authorized $106.5 million for Phase II of the Virginia
Square development — the design and construction of a second office building and a special-
                                                                         purpose facility to be completed in
 Figure 1: Virginia Square Phase II Timeline                             December 2005. Figure 1
                                                           Complete
    100%
                                         Start Move-In
                                                       December 31, 2005 illustrates the project’s stages and
                                         October 2005
                                                                         major milestones. The FDIC
                                                                         established an FDIC project team
                                                                         and contracted with three primary
   Percent of Completion




                                                                         contractors — a development
                          Groundbreaking                                 manager, an architecture and
                          September 2003
                                                                         engineering firm, and a general
         Project Approval                                                contractor. The FDIC also
           March 2002
                                                                         contracted with a fourth contractor
                                                                         to provide independent review and
                           Feasibility            Planning and Design    consulting services. The four
                                                                        Construction                  Turnover and Startup

                                                                         contractors and their general
                           •Housing Study         •Base Design          •Excavation                   •Final Testing
                           •Cost Benefit          •Cost and Schedule    •Building                     •Employee Moves
                           •Project Team Leader   •Contracts            •Manufacturing and Delivery   •Contract closeout
                                                  •Detail Design
                                                                         responsibilities are listed in
                                                                        •Installation and Testing



                                                                         Appendix II. Groundbreaking for
the new building occurred in September 2003, and the FDIC anticipates relocating employees from
its Washington, D.C., offices starting in October 2005.

Project Oversight Structure

FDIC oversight of the project is provided by the Board of Directors, the Executive Oversight
Committee, and the FDIC project team. The Board of Directors authorized the project, provides
funding, and monitors the
project through quarterly         Figure 2: Virginia Square Phase II Project Management
progress reports. The
Executive Oversight                                Board of Directors
Committee is composed of
                                             Executive Oversight Committee
the FDIC Chief Operating
Officer, Chief Financial                                                        Disbursement
Officer, and the Deputy to the                        Project Team
                                                                                 Advisor and
Chairman and is responsible                                                      Consultant
for monitoring adherence to                      Development Manager
the project budget, schedule,
and internal controls over           General Contractor            Architect and
construction activities. The                                          Engineer
Executive Oversight
Committee also approves change orders in excess of $100,000. The Executive Oversight
Committee receives project updates from the project team and the contractors. The project
oversight structure is shown in Figure 2.

The FDIC also established a project team to ensure that the FDIC’s requirements are met. The
FDIC project team is composed of FDIC employees who are also the oversight managers and
technical monitors for the four major contractors. The project team is headed by the Associate


                                                                                                          2
Director of DOA who also oversees the work of the general contractor. The team works closely
with the contractors and meets weekly with them to discuss progress and issues. The development
manager provides a monthly status report to the project team, which gives the Executive Oversight
Committee a monthly briefing.

Project Management Guidance

The Project Management Institute2 has conducted extensive research and analysis in the field of
project management and published a standards guide in 2000, A Guide to the Project Management
Body of Knowledge (PMBOK® Guide). The PMBOK® Guide documents proven practices, tools,
and techniques that have become generally accepted3 in the field of project management. The
Project Management Institute also published a construction extension, supplementing the PMBOK®
Guide with knowledge areas, practices, tools, and techniques for managing construction projects.

We used the PMBOK® Guide and the construction extension to the Guide as the primary criteria for
our review of the Virginia Square Phase II construction control framework. The FDIC is not
required to comply with the PMBOK® Guide and construction extension; however, we used them
because they contain sound and prudent practices related to the successful management of
construction projects. Appendix I contains additional information on these guidelines.


RESULTS OF AUDIT


The FDIC established an adequate control framework for the Virginia Square Phase II construction
project that, if consistently and effectively implemented, should minimize the FDIC’s risk that
financial and time budgets may not be met (see Finding A: Project Control Framework). In
evaluating the overall control framework, we observed that the FDIC withheld less than the contract
entitled the FDIC to retain on progress payments to the general contractor (see Finding B: Progress
Payments to the General Contractor). Consequently, the FDIC disbursed about $447,445 more
than required by the contract as of the end of our audit field work. Although the Corporation
modified the contract to resolve the issue, the premature payments add minimally to the financing
costs of the project and to the risk of incomplete or unsatisfactory performance by the general
contractor. Further, should there be a lack of familiarity with contract terms and insufficient
monitoring of compliance with all contract provisions, the success of the project could be hindered.




2
   The Project Management Institute was established in 1969 as a not-for-profit project management professional
  association. The Project Management Institute has over 95,000 members in 125 countries worldwide.
3
  The PMBOK® Guide defines the term "generally accepted" as being applicable to most projects, most of the time, and
  having widespread consensus regarding value and usefulness.


                                                          3
                           FINDINGS AND RECOMMENDATION

FINDING A: PROJECT CONTROL FRAMEWORK


The FDIC established an adequate control framework that included monitoring by the FDIC and
monitoring and progress reporting by contractors to minimize the risks that financial goals and
targeted completion dates are not met. The FDIC’s establishment of a project control framework, if
consistently and effectively implemented, should ensure that the project will be completed on time
and within budget.

Project Management Processes                                Figure 3: Project Management Process Groups
                                                              Initiation-authorizing the project or phase.
The PMBOK® Guide and construction extension             Planning-defining and refining objectives and selecting
identify 56 processes associated with 13                   the best of the alternative courses of action to attain the
construction project management knowledge                  objectives that the project was undertaken to address.
areas. The processes are organized into five            Execution-coordinating    people and other resources to
                                                           carry out the plan.
groups: initiating, planning, execution,                Controlling-ensuring that project objectives are met by
controlling, and closing. To evaluate the FDIC             monitoring and measuring progress regularly to
control framework, we compared the PMBOK®                  identify variances from the plan so that corrective
Guide’s processes in the controlling group,                action can be taken when necessary.
applicable to 10 of the 13 knowledge areas, to          Closing-formalizing   acceptance of the project or phase
                                                           and bringing it to an orderly end.
activities and documentation for the Virginia
Square Phase II construction project. As shown
in Table 1, the controlling processes had been established for the project.

Table 1: Controlling Processes for the Virginia Square Phase II Project
  PMBOK®
  Controlling                      FDIC Activity and Documentation for Comparable Process
   Process
                                            Integration Management
                    On March 22, 2002, the FDIC Board of Directors approved the Virginia Square Phase II
                    construction and established oversight bodies that meet regularly to review the overall
                    project. The development manager provides minutes of meetings to the FDIC and all
  Integrated
                    contractors (the responsibilities of the various contractors are described in
Change Control
                    Appendix II), coordinating the distribution of progress information among all the
                    involved parties. Task order changes and contract modifications are formally documented
                    and processed.
                                              Scope Management
    Scope           General contractor progress payments and work products are verified and approved in a
  Verification      formal review process.
                    Scope changes undergo a formal review and authorization process that includes approval by
 Scope Change       appropriate FDIC management levels. The DOA Associate Director approves changes up to
    Control         $50,000; the DOA Contracting Officer approves changes up to $100,000; and the Executive
                    Oversight Committee approves changes in excess of $100,000.



                                                        4
                                             Time Management
   Schedule       Current status and progress are monitored continuously and documented in the monthly
    Control       development manager’s reports.
Progress Curves   The development manager prepares a time line chart to track planned and actual progress.
 Development
   Progress       The development manager accompanies other contractors and an FDIC technical monitor in
  Monitoring      inspecting progress before invoices are paid.
                                             Cost Management
                  The monthly progress reports prepared by the development manager include a comparison
                  of updated cost and budget estimates with the original cost and budget estimates.

                Monthly invoices from the general contractor include the estimated cost at completion for
 Cost Control
                the general contractor’s work. These billings include owner allowances for expected costs
                that have not been finalized. The general contractor’s invoices also provide total amounts
                billed to the FDIC for each of the billing schedule items and the amount to be billed by
                completion of the schedule item.
                                           Quality Management
                The general contractor has a quality control plan that includes checklists for quality control
                items. In addition, the development manager has subcontracted for independent quality
Quality Control control services such as testing the soil compaction and concrete quality. Finally,
                government building inspectors review construction quality, and the contractors must correct
                defects before construction continues.
                                      Communications Management
                The FDIC project team and contractor representatives hold weekly meetings to discuss
                current progress and issues. At this meeting, the general contractor provides a forecast of
                work that will be performed during the following 2 weeks. The FDIC technical monitor and
                contractor representatives also conduct a monthly walk-through of the site and discuss the
  Performance
                general contractor’s request for a progress payment in relation to the physical evidence of
   Reporting
                progress. These formal meetings along with the day-to-day interactions ensure continuous
                communications among the FDIC project team and the major contractors. Minutes of the
                weekly meetings, a monthly project status report, and formal presentations to the Executive
                Oversight Committee document project progress and issues.
                                             Risk Management
                The FDIC addresses risk through contractual arrangements such as a firm fixed price contract
                for the general contractor and contractor insurance and bonds. The FDIC also provides
                monetary and schedule allowances for predictable events, such as weather delays, and for
Risk Monitoring
                unforeseen events, such as discovery of a previously unknown construction obstacle. The
  and Control
                major contractors are responsible for identifying issues; the development manager records
                them during the weekly status meetings. The issues are numbered and corrective action is
                assigned, and the issues are tracked to resolution.
                                       Environmental Management
                The FDIC obtained geotechnical, environmental, and traffic impact studies before beginning
 Environmental
                construction and took appropriate action to ensure compliance with environmental
    Control
                requirements at the site.




                                                    5
                                                  Financial Management
                        The FDIC Board of Directors authorized the project. DOA documented the cost savings
                        over 20 years. DOA also evaluated the impact on the funding sources — the Bank Insurance
       Financial
                        Fund (BIF) and the Saving Association Insurance Fund (SAIF) — and determined that the
        Control
                        building could be funded through interest on the funds and without affecting the insurance
                        reserves.
                                                   Claim Management
                        Any potential claims by the major contractors, subcontractors, or FDIC would be identified
                        early through disagreements made known in the weekly meetings attended by the FDIC and
        Claim
                        representatives from all the major contractors. The meeting minutes are documented in the
      Prevention
                        development manager’s monthly progress reports. As of the end of our audit field work,
                        there had been no claims.
Source: OIG interviews and analysis of project documentation.



Overall, the FDIC established a control framework for the Virginia Square Phase II project that is
generally consistent with the PMBOK® Guide.


FINDING B: PROGRESS PAYMENTS TO THE GENERAL CONTRACTOR


The contract with Turner Construction Company (Turner) on the Virginia Square Phase II
construction project entitled the FDIC to retain a portion of all amounts billed (direct and indirect
costs4) by Turner and due for payment. However, the FDIC retained less than the contract
permitted from the progress payments made to Turner. In billings to the FDIC for the period
December 1 through December 31, 2003 and contrary to the terms of the contract, Turner invoices
did not include retainage5 for indirect costs billed, and personnel responsible for reviewing Turner’s
invoices did not reject the invoices as being incorrect. As a result, the FDIC disbursed more than it
should have under the contract provisions.

Review of Turner Invoices

Section 4.3.7 of the FDIC contract with Turner states that the FDIC is entitled to retain 10 percent of
all amounts invoiced and due for payment until 50 percent of the work is substantially completed.
Thereafter, the FDIC would retain 5 percent of all amounts invoiced for the remaining work on the
project.

To receive progress payments during construction, Turner submitted a monthly application and
certification for payment as an invoice to the FDIC for work performed and materials stored. The
invoice included cumulative amounts for all prior billings, retainage, and FDIC payments. Turner’s
December 2003 invoice included retainage on direct costs but did not include retainage on the
indirect costs included in the billings for Task Order 3 and Modification 5. As shown in Table 2,
the FDIC retained $337,640 but was entitled to withhold an additional $447,445.

4
    Indirect costs include costs for bonds, taxes, builder’s risk, general conditions and fees, insurance, and security.
5
    Retainage is a portion of a government contractor’s payment that is withheld by a government authority until the
    contract is satisfactorily completed.


                                                                6
Table 2: Amount Retained From Turner Construction Through February 13, 2004
                                                                                        Retention
    Work Description       Amount Billeda      Amount Paid
                                                                      Actual            Allowed           Difference
Pre-Constructionb                $ 410,000          $ 410,000
Task Order 3                       4,032,651          3,727,831          $304,820            $403,265          $ 98,445
Modification 1                        57,544             51,790             5,754               5,754                  0
Change Order 1                       270,659            243,593            27,066              27,066                  0
Modification 5                     3,490,000          3,490,000                 0             349,000            349,000
Totals                            $8,260,854         $7,923,214          $337,640            $785,085           $447,445
Source: OIG analysis of paid invoices as of February 13, 2004.
a
 Amount billed for work completed and material stored.
b
  Includes Task Orders 1 and 2 and other pre-construction work.

Turner invoices are subject to numerous reviews by FDIC and contractor personnel with oversight
responsibility. The FDIC contracting officer and the oversight manager are responsible for ensuring
that the amounts invoiced are in agreement with the contract terms. For the Virginia Square
Phase II construction project, the development manager, the architect, and the disbursements
advisor contractors are also responsible for reviewing the invoices. If the invoices are not correct,
the process requires that they be rejected and returned to Turner for correction and resubmission.
However, the reviewers did not reject the invoices as incorrect. Rather, the reviewers focused on
the amounts billed in relation to progress on the project and did not address the retainage related to
amounts billed for indirect costs. The reviewers indicated that they did not question Turner’s
retention calculation because the majority of contracts they had been involved with for other
construction projects did not apply retainage to indirect costs. The billing reviewer for Heery
International, the contractor responsible for advising the Executive Oversight Committee, said that
if he had been more familiar with the contract’s retainage clause, he may have challenged the
retention calculation.

According to an American Institute of Architects6 attorney, there is no industry standard that
identifies costs subject to retention. Accordingly, contract terms are normally applied as written. If
the contract states that retainage applies to all amounts billed, as is the case with the Turner contract,
then retainage should be taken on both direct and indirect costs.

According to the FDIC Virginia Square Phase II project team leader and the FDIC attorney for the
project, the FDIC never intended to withhold funds related to the general contractor’s indirect costs.
The project team leader said that the purpose of retainage was to help ensure the performance and
the quality of the work performed by subcontractors. Subcontractor billings to the general
contractor are direct costs, and the FDIC intended to have withheld about 7.5 percent of these costs
by the end of the contract. Because retainage is taken from billings for work performed by
subcontractors and because the FDIC required performance bonds for Turner, the project team
leader and attorney said that there is no significant increase in risk to the project by limiting

6
    The American Institute of Architects publishes more than 80 contracts and administrative forms recognized throughout
    the design and construction industry as the benchmark documents for managing transactions and relationships involved
    in construction projects.


                                                             7
retainage to direct costs. The project team leader and attorney said that, therefore, the contract terms
should be modified to exclude indirect costs from retainage.

After we brought this issue to the attention of the project team, the FDIC included provisions in
contract Modification 6, dated February 26, 2004, which changed contract section 4.3.7, Retainage.
The modification states that indirect costs would not be subject to retainage. We estimated that the
reduction in retainage adds $32,122 to the cost of financing the project through December 31,
2005.7

Although the additional financing costs and increase in risk may not be significant in this case, the
insufficient attention to the contract’s provisions could have an impact on other areas of the project.
Hence, DOA should ensure that all reviewers are fully aware of and understand the terms of the
contract and bring any instances of noncompliance to the division’s attention prior to invoice
payment.

Recommendation

We recommend that the Director, DOA:

Emphasize that invoices be reviewed for compliance with all contract terms, including retainage
provisions, and that discrepancies be documented and resolved before payment.


CORPORATION COMMENTS AND OIG EVALUATION


DOA management concurred with the recommendation and has taken corrective action. The DOA
Director has emphasized, to the project team leader, the need to ensure that the proper amount is
retained for each invoice and that any discrepancies be appropriately documented and resolved prior
to payment. The project team leader has similarly emphasized these matters to all team members
with contract oversight responsibilities. The response is presented in its entirety in Appendix III of
this report.

Management’s action was responsive to the recommendation. The recommendation is resolved,
dispositioned, and closed. Based on management’s comments and our further review of the
contract, we clarified our Appendix II description of the Disbursements Advisor and Consultant’s
general responsibilities.




7
    Retainage on the project is reduced by $346,621 (7.5 percent of the project’s indirect costs of $4,621,611) for a 2-year
    period. Using 4.53 percent, which is the annualized interest rate earned on BIF and SAIF investments through the first
    3 quarters of 2003, we estimated the earnings on the $346,621 to be $32,122.


                                                               8
                                                                                       APPENDIX I




                        OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The objective of the audit was to determine whether the control structure was adequate to minimize
the FDIC’s risk that financial and time budgets may not be met. We performed our audit from
December 16, 2003 through March 12, 2004 in accordance with generally accepted government
auditing standards.

Scope

The scope of the audit covered the FDIC’s Virginia Square Phase II construction project activities
from March 2002 through February 2004. To assess the FDIC’s project control framework, we
interviewed FDIC and contractor personnel at FDIC headquarters and reviewed project
documentation. Specifically, we interviewed members of the project team and key contractor
personnel from David Orr Associates, Inc. (Orr); Ellstreet Corporation (Ai); and Heery International
(Heery). We reviewed the following project documentation:

•   The March 22, 2002 FDIC Board Memorandum approving the Phase II construction.
•   The contracts between the FDIC and Turner, Orr, Ai, and Heery.
•   Turner’s contract proposal, including Turner’s quality and safety management plans.
•   Orr’s monthly status reports for October 2003 through January 2004.
•   Turner invoice payments for the period January 2002 through January 2004.
•   The FDIC’s geotechnical engineering analysis, dated October 1, 2002.
•   The October 23, 2002 Traffic Impact Analysis prepared for the FDIC.
•   The Environmental Site Assessment, dated December 31, 2002, performed for the FDIC by
    Engineering Consulting Services, LTD.
•   The May 8, 2003 assessment of the FDIC Security Levels Appropriate for FDIC at Virginia
    Square, performed by Systech Group, Inc.

Methodology

The PMBOK® Guide describes 13 knowledge areas for construction project management. These
13 areas include inputs, tools and techniques, and outputs for project management processes.
PMBOK® classifies the processes into five fundamental process groups: initiating, planning,
executing, controlling, and closing. To evaluate whether a control framework existed, we looked
for controlling process outputs or related processes within the project that would indicate that a
control framework had been established. Also, we gained an understanding of the internal control
activities, such as the FDIC-created oversight bodies and delegated responsibilities and authorities
as approved by the FDIC Board of Directors to monitor construction and billing activities.
Consistent with our audit objective, however, we did not test the effectiveness of these internal
control activities.




                                                  9
                                                                                      APPENDIX I




We reviewed applicable laws and regulations and concluded that the FDIC’s Virginia Square
Phase II project complied with the necessary permit and preliminary studies required before
beginning construction activity. We corroborated automated information used to support our audit
findings, conclusions, and recommendations with other sources to ensure they were sufficiently
reliable. For example, we discussed information contained in project status reports and plans with
key project personnel. Further, we assessed the Corporation-established performance measures
related to the construction of the Virginia Square Phase II project. The construction budget is
consistent with the 2003 Annual Performance Plan Operational Efficiency and Effectiveness
financial stewardship initiative to reduce facilities costs. According to the plan, the project will
provide an estimated net savings of about $78 million over 20 years compared to projected costs
associated with 2003 leasing arrangements. Additionally, our audit procedures detected no
fraudulent or illegal acts.

Project Management Criteria

The Project Management Institute issued the PMBOK® Guide, which contains generally accepted
practices, tools, and techniques related to project management and is an approved standard of both
the American National Standards Institute and the Institute of Electrical and Electronics Engineers.
The PMBOK® Guide identifies the following nine distinct knowledge areas associated with
successful project management:

   •   Integration Management: The processes that ensure various elements of a project are
       properly coordinated. Integration management consists of project plan development and
       execution and integrated change control.
   •   Scope Management: The processes that ensure a project includes all of the work required,
       and only the work required, to complete the project successfully. Scope management
       consists of initiation and scope planning, definition, verification, and change control.
   •   Time Management: The processes that ensure timely completion of a project. Time
       management consists of activity definition, sequencing, and duration estimating as well as
       schedule development and schedule control.
   •   Cost Management: The processes that ensure a project is completed within the approved
       budget. Cost management consists of resource planning and cost estimating, cost budgeting,
       and cost control.
   •   Quality Management: The processes that ensure a project will satisfy the needs for which
       it was undertaken. Quality management consists of quality planning, assurance, and control.
   •   Human Resource Management: The processes that make the most effective use of the
       people involved with a project. Human resource management consists of organizational
       planning, staff acquisition, and team development.
   •   Communications Management: The processes that ensure timely and appropriate
       generation, collection, dissemination, storage, and ultimate disposition of project




                                                 10
                                                                                      APPENDIX I




       information. Communications management consists of communications planning,
       information distribution, performance reporting, and administrative closure.
   •   Risk Management: The processes concerned with identifying, analyzing, and responding to
       project risk. Risk management consists of risk management planning, risk identification,
       qualitative and quantitative risk analysis, risk response planning, and risk monitoring and
       control.
   •   Procurement Management: The processes related to acquiring goods and services from
       outside the organization. Procurement management consists of procurement and solicitation
       planning, solicitation, source selection, contract administration, and contract closeout.

The Project Management Institute has also issued guidance in the form of a construction project
extension to cover the construction industry project management practices. In addition to
discussing the construction industry application of the nine project management areas above, the
guidance addresses the following four knowledge areas:

   •   Safety Management: The processes required to assure that the construction project is
       executed with appropriate care to prevent accidents that cause or have the potential to cause
       personal injury or property damage.
   •   Environmental Management: The processes required to ensure that the impact of the
       project execution to the surrounding environment will remain within the limits stated in
       legal permits.
   •   Financial Management: The processes to acquire and manage the financial resources for
       the project. Financial management, as compared to cost management, is more concerned
       with revenue source and analyzing/updating net cash flows for the construction project.
   •   Claim Management: The processes required to eliminate or prevent construction claims
       from arising and for the expeditious handling of claims if they do occur.

We used the PMBOK® Guide and construction extension as criteria for auditing the establishment
of the Virginia Square Phase II construction project controls. The FDIC is not required to comply
with the PMBOK® Guide; however, we used it as criteria because it contains sound and prudent
practices related to successful project management.




                                                11
                                                                                             APPENDIX II




   VIRGINIA SQUARE PHASE II FDIC PROJECT MANAGEMENT CONTRACTORS

   Contractor           Description                         General Responsibilities
David Orr             Development           Provides technical assistance to the FDIC project team
Associates, Inc.      Manager               during procurements for contracts, including
(Orr)                                       procurements for the general contractor, architect,
                                            engineers, and others.

                                            Provides construction project management and
                                            coordinates day-to-day design and construction activities.
Ellstreet             Architecture and      Provides architectural and engineering design services and
Corporation (Ai)      Engineering           related duties for the project.
Turner                General               Provides the labor, materials, and equipment needed to
Construction          Contractor            construct the building.
Company
(Turner)                                    Provides information, recommendations, and advice to the
                                            project team and contractors regarding current industry
                                            practices and ensures the project team is aware of options
                                            during the design and construction of the project.
Heery                 Disbursements         Provides the Executive Oversight Committee with
International         Advisor and           independent quality assurance of development manager’s
(Heery)               Consultant            review of work, verification of project progress, and
                                            advice on potential risk issues and proposed change
                                            orders. Heery also verifies that subcontractors’ waivers
                                            or releases of mechanic liens have been obtained.*
Source: OIG analysis of project documentation.
*Mechanic liens are claims created by state statutes for the purpose of securing priority of payment of the
 price or value of work performed and materials furnished in erecting, improving, or repairing a building or
 other structure, and as such, attaches to the land as well as buildings and improvements erected thereon.




                                                     12
                       APPENDIX III



CORPORATION COMMENTS
     APPENDIX III




14
                                                                                                                                                             APPENDIX IV

                                                  MANAGEMENT RESPONSE TO THE RECOMMENDATION

     This table presents the management response that has been made on the recommendation in our report and the status of the recommendation as of
     the date of report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                               Open
      Rec.                                                                     Expected              Monetary       Resolved:a      Dispositioned:b             or
     Number       Corrective Action: Taken or Planned/Status                Completion Date          Benefits       Yes or No         Yes or No               Closedc
       1         The DOA Director has emphasized, to the                     April 13, 2004           None             Yes               Yes                   Yes
                 Virginia Square Phase II project team leader, the
                 need to ensure that the proper amount is retained
                 for each invoice and that any discrepancies be
                 appropriately documented and resolved prior to
                 payment. Similarly, the project team leader has
                 emphasized these matters to all team members
                 that have contract oversight responsibilities
15




      Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                 (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                 (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                     management provides an amount.

     Dispositioned – The agreed-to corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through implementation
      identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.

     Once the OIG dispositions the recommendation, it can then be closed.
